<html>
<title> - U.S. RELATIONS WITH VIETNAM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                      U.S. RELATIONS WITH VIETNAM

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 5, 2013

                               __________

                           Serial No. 113-28

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

81-342 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana                 WILLIAM KEATING, Massachusetts


























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Joseph Y. Yun, Acting Assistant Secretary, Bureau of East 
  Asian and Pacific Affairs, U.S. Department of State............    10
Daniel B. Baer, Ph.D., Deputy Assistant Secretary, Bureau of 
  Democracy, Human Rights and Labor, U.S. Department of State....    18

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Joseph Y. Yun: Prepared statement............................    13
Daniel B. Baer, Ph.D.: Prepared statement........................    20

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
Written responses from Mr. Joseph Y. Yun to questions submitted 
  for the record by the Honorable Christopher H. Smith, a 
  Representative in Congress from the State of New Jersey........    48

 
                      U.S. RELATIONS WITH VIETNAM

                              ----------                              


                        WEDNESDAY, JUNE 5, 2013

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:02 p.m., in 
room 2172, Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. The committee will come to order.
    Good afternoon. We welcome everyone here today, both my 
colleagues and our distinguished witnesses this afternoon and 
the folks who have taken the time to sit through this 
testimony.
    I would also like to extend a special greeting to Chairman 
Royce and Chairman Smith, who will be here shortly to join us 
this afternoon.
    It has been a very busy couple of days for issues regarding 
Vietnam here in Congress. Yesterday, nearly 800 Vietnamese-
Americans came to Capitol Hill for the Vietnamese-American 
Advocacy Day to meet with their representatives and discuss the 
most pressing issues facing the U.S.-Vietnam relationship. I 
had the honor and pleasure to address about 350 people in the 
auditorium of the Capitol Visitor Center yesterday morning, and 
that was a great opportunity to meet quite a few people.
    I extend a special welcome to those of you who are here in 
the audience today.
    I also ask unanimous consent that the gentleman from 
California, Mr. Lowenthal, be permitted to sit in this 
afternoon and be recognized after all other members of the 
subcommittee have been recognized for questions.
    Without objection, so ordered.
    Today's hearing, I think, is particularly timely, not only 
because of yesterday's advocacy day celebrating and recognizing 
the importance of Vietnamese-Americans as part of the greater 
fabric of this country, but also because the state of the U.S.-
Vietnam relationship is at a critical juncture.
    Vietnam is a country that, over the course of the past 2 
decades, has made great strides in reforming its economy and 
accelerating its growth. In 2018, Vietnam will be formally 
recognized as a market economy and, by 2020, it hopes to reach 
industrialized country status. This is tremendous, especially 
since many of us in this room remember the war-torn country it 
was some 38 years ago, especially my colleague, our ranking 
member, Mr. Faleomavaega. He served during the Vietnam War. We 
thank him for his service to our country.
    In addition, the U.S. is now Vietnam's largest trading 
partner and one of its top foreign investors. Vietnam's 
participation in the Trans-Pacific Partnership (TPP) 
negotiations is considered a big step in recognizing Vietnam's 
growing influence in the Asia-Pacific region, even if it is 
becoming more and more uncertain whether Hanoi can meet the 
agreement's standards.
    Nevertheless, economic relations seem to be only one of the 
more important components driving the administration's efforts 
to broaden engagement in other areas. It is unfortunate that 
USTR refused our invitation to join today's hearing, because 
trade is a key aspect of this bilateral relationship and many 
of the office's ongoing efforts are contingent upon progress on 
other areas, notably human rights. Hopefully, our witnesses 
from the State Department can relay any concerns that we 
express this afternoon.
    As we have witnessed Vietnam's economic role in Asia 
evolve, its overall strategic and geopolitical importance has 
grown in parallel. Vietnam's interest in forming closer ties 
with the U.S. in response to China's assertiveness in the South 
China Sea has commenced a new chapter in U.S.-Vietnam 
relations.
    At this critical stage, where the relationship faces an 
array of opportunities, there is also a long list of challenges 
that are hard to ignore, namely the entirety of Vietnam's human 
rights record. Credible reports from organizations here in 
Washington, international advocacy groups, and people inside 
Vietnam indicate that the human rights abuses in Vietnam are 
continuing, have broadened, and are probably even getting 
worse.
    Members of the subcommittee staff visited Vietnam earlier 
this year to investigate the human rights conditions, among 
other things, inside Vietnam, during which they heard directly 
from a variety of individuals who validated those concerns 
about human rights. In the last few weeks, we have seen 
Vietnam's Government crack down on dissent by arresting blogger 
Truong Duy Nhat for allegedly abusing democratic freedoms with 
acts against the state; beating and detaining numerous people 
attending a human rights picnic on May 5th who gathered to 
peacefully discuss human rights issues at that park; detaining 
20 individuals just this past weekend for protesting the recent 
ramming of a Vietnamese trawler by Chinese Navy vessels; 
harshly sentencing two young Vietnamese bloggers last month; 
and preventing blogger and RWB-Google 2013 Netizen of the Year, 
Huynh Ngoc Chenh, from traveling to the U.S.
    These examples give us plenty of reasons to think that the 
number of religious leaders, bloggers, and politically active 
people being abused, harassed, detained, convicted, and 
oftentimes sent to jail for violations of Vietnam's 
authoritarian penal code are growing.
    The question today is whether Vietnam is doing enough to 
warrant the current level of assistance and cooperation that it 
receives from the U.S. Even the State Department's 2012 Human 
Rights Report paints a picture that this may not be acceptable.
    As the human rights condition in Vietnam deteriorates, 
enhancing security cooperation and assistance becomes 
problematic. Why does the Fiscal Year 2014 State Department 
budget request for Vietnam increase the levels of IMET 
(International Military and Education Training) and FMF 
(Foreign Military Financing) assistance, while decreasing 
assistance in other areas? These increases need to be 
justified.
    Fundamentally, Vietnam disagrees with the basic definition 
of human rights and what it means to protect the basic rights 
of its people. I consider it ever more difficult to verify that 
U.S. taxpayer dollars are being appropriately utilized in these 
areas.
    I hope that today's witnesses will discuss the outcomes of 
the Human Rights Dialogue held in April and what promises or 
commitments, if any, Vietnam made. At the same time, I hope 
that you can elaborate on how the administration is pressuring 
Vietnam to take action and detail what the administration plans 
to do if human rights abuses continue at the current rate.
    Lastly, I think it is important to emphasize that a 
successful and mutually beneficial U.S.-Vietnam relationship 
across all issue areas is really what most of us here want to 
see. Until Vietnam implements the proper reforms and 
demonstrates its commitment to upholding the basic rights of 
its citizens, it will be difficult to justify enhancing our 
relationship further.
    For example, if and when TPP negotiations reach a final 
agreement, it must be approved by Congress. Vietnam's 
participation will likely face considerable scrutiny because of 
the magnitude of its human rights abuses. This is a message 
that Vietnam must understand.
    I know Mr. Faleomavaega has a number of constituents from 
the Close Up Foundation who are with us this afternoon, so I am 
going to grant him a couple of extra minutes for his statement. 
Following his statement I will recognize Chairman Royce for 5 
minutes and Chairman Smith of the Subcommittee on Africa, 
Global Health, Global Human Rights, and International 
Organizations also for 5 minutes. Following their remarks we 
will recognize any additional members who wish to speak for 1 
minute. Then we will proceed with our witnesses' testimony, 
questions from us, and then we will adjourn.
    I now yield to my friend from America Samoa, the 
distinguished ranking member of this committee, Eni 
Faleomavaega, for making his opening remarks.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I, too, would like to offer my personal welcome to 
Secretary Yun and Secretary Baer, representing our State 
Department here for this hearing this afternoon.
    Mr. Chairman, 7 years ago, President George W. Bush visited 
Vietnam, at which time he stated, and I quote, ``History has a 
long march to it. Societies change, and relationships can 
constantly be altered to the good.'' I believe President Bush's 
remarks should be the theme of today's hearing. As a Vietnam 
veteran, I truly believe it is time for the U.S. to play fair.
    In December of last year, I met with Vietnam's Prime 
Minister and also with the Vice President of the National 
Assembly, Madam Tong Thi Phong, with the Foreign Minister, the 
vice chair of the Committee on Religious Affairs, and many 
other high-ranking officials. With surety, Mr. Chairman, I know 
that Vietnam's leaders are fully committed to advancing U.S.-
Vietnam relations and promoting human rights.
    Vietnam is a party to almost all core international rights 
treaties, and so are many other nations who may not necessarily 
be democratic and are members of the United Nations. Vietnam is 
in every respect engaged in the Human Rights Dialogue with the 
European Union, Australia, Norway, Switzerland, and even the 
United States.
    Vietnam is working to improve its human rights record by 
strengthening its legal system, its economy, and its social and 
cultural rights. Vietnam welcomes international assistance for 
the implementation of human rights policies.
    But unlike its critics, Mr. Chairman, Vietnam has no hired 
guns to get its message out. Vietnam does not have a community 
of U.S. campaign contributors to solidify congressional support 
for the progress it is making. So while I believe in free 
speech and human rights, I also believe we should pull the 
curtain back a little and see things for what they really are.
    How sincere are Vietnam's critics? If the critics are 
sincere, let them call for the United States to clean up the 
mess we left behind in Vietnam.
    Between 1961 to 1971, for over 10 years, the United States 
military sprayed an estimated 11 million to 12 million gallons 
of Agent Orange in Vietnam, exposing tens of thousands of 
innocent civilians, including men, women, and children, to one 
of the most deadliest chemical compounds ever known to man, 
dioxin--a toxic contaminant known to be one of the deadliest. 
Today, the U.S. Government continues to deny any legal 
liability and questions Vietnam's assertions about the problems 
associated with Agent Orange. And I haven't even begun to 
address the serious problems of the thousands of our own men 
and women in the military who were also exposed to this deadly 
toxic substance.
    Mr. Chairman, as a Vietnam veteran who may have been also 
exposed to Agent Orange during that period, and as a Polynesian 
Pacific Islander, I am deeply committed to doing all I can to 
help the people of Vietnam. Just like the Vietnamese, Pacific 
Islanders still suffer the lingering effects of genetic 
abnormalities that have resulted from their legacies of war. 
Specifically, United States, French, and British nuclear 
testing programs caused tremendous harm to these islands and to 
thousands of Pacific Islanders who were exposed to nuclear 
contamination.
    For example, from 1946 to 1958, the United States conducted 
67 nuclear tests in the Republic of the Marshall Islands. The 
number and intensity of these tests were equal to 7,000 
Hiroshima bombs, atomic bombs, or to the dropping of 1.6 
Hiroshima bombs every day for a 12-year period. The nuclear 
test code-named Bravo, a 15-megaton hydrogen bomb, was 
detonated in March 1954 in the Bikini Atoll in the Marshall 
Islands, which was equivalent to 1,300 times the power of the 
Hiroshima bomb that we dropped in World War II. Acknowledged as 
the greatest nuclear explosion ever detonated, the Bravo test 
vaporized 6 islands and created a mushroom cloud 25 miles in 
diameter.
    Because people were living in these Pacific islands during 
the time of the United States nuclear testing program, the 
people of the Republic of the Marshall Islands were exposed to 
severe radiation poisoning. Even today, 64 years after the U.S. 
nuclear testing program began, the people of the Rongelap Atoll 
are still exiled from their own land due to the radioactive 
fallout. Many women still give birth to what some label as 
``jelly babies,'' or deformed babies born with no bones, no 
eyes, no heads, no limbs, no legs.
    In 2007, after becoming the chairman of the Asia-Pacific 
Subcommittee, I visited Vietnam. I visited the hospitals, met 
with the veterans, the children, and government leaders. I saw 
jelly babies in bottles. And I saw no critics from Capitol Hill 
calling for the United States to do the right thing by the 
people and the Government of Vietnam.
    For the record, Mr. Chairman, after every war, America has 
always helped countries rebuild, for which I am always 
grateful. According to the Congressional Research Service, 
after Japan attacked the United States, U.S. assistance to 
Japan from 1946 to 1952 was about $15.2 billion in 2005 
dollars. To Germany, from 1946 to 1952, the United States 
provided a total of $29.3 billion. From 2003 to 2006, the 
United States appropriated $35.7 billion for Iraq 
reconstruction.
    My question, Mr. Chairman: Why aren't we helping Vietnam? 
Why are we doing everything we can to push Vietnam away? 
Vietnam is of strategic importance to the United States, yet we 
have only had renewed diplomatic relations since 1995. 
President Clinton and President George W. Bush both visited 
Vietnam, and I encourage President Obama to do the same.
    I especially thank the U.S. companies like Procter & 
Gamble, Ford, General Electric, Lockheed Martin, Exxon, 
Honeywell, just to name a few, that invest in Vietnam and, in 
so doing, demonstrate that relationships can be altered for the 
good.
    I also commend Vietnam for its fast-track progress for the 
registration of religious groups and publication of bilingual 
bibles.
    To clarify many of the matters before us today, I am 
including a more detailed statement from the Embassy of the 
Socialist Republic of Vietnam in the United States.
    On a personal note, Mr. Chairman, I will continue to do all 
I can to set the record straight for those who are unaware of 
Vietnam's remarkable achievements.
    Mr. Chairman, I deeply appreciate the extra minute, I 
wanted to introduce to you and our colleagues our young 
students here from the Close Up Foundation. I am so proud and 
honored to have them in our presence. They worked for months in 
raising what money they were able to do to come all the way 
from my little district to visit our Nation's capital, our 
young students here from the Close Up Foundation.
    Can you stand up, please?
    [Applause.]
    Mr. Faleomavaega. Now, I know because we are pressed for 
time, Mr. Chairman. I was going to ask them to sing us a song, 
but I know that that won't be possible, so maybe another time.
    Thank you, Mr. Chairman. I appreciate it.
    Mr. Chabot. Thank you very much, Mr. Faleomavaega.
    We would now like to recognize the gentleman from New 
Jersey, Chairman Smith, who is the subcommittee chairman on 
Africa, Global Health, Global Human Rights, and International 
Organizations, for 5 minutes.
    Mr. Smith. Mr. Chairman, thank you very much for your 
courtesy and for your leadership in convening this very 
important hearing today on human rights in Vietnam and the 
trade and other agreements that we have with them.
    Yesterday, Mr. Chairman, I actually chaired my 14th 
congressional hearing exclusively focused on human rights 
abuses committed by the Government of Vietnam, with an emphasis 
on confiscated properties of U.S. citizens and with some 
emphasis on religious persecution.
    The Vietnamese dictatorship is in a race to the bottom with 
the Governments of North Korea, China, and Sudan concerning 
human rights abuses. As Deputy Assistant Secretary Dan Baer 
will testify today, some isolated positive steps are not enough 
to reverse the years-long trend of deterioration.
    Human Rights Watch's John Sifton testified yesterday at my 
hearing and said that the trendlines show a worsening 
situation. He points out that, in the first few months of 2013, 
more people have been convicted in political trials as in the 
whole of the last year. He also pointed out that, on May 16th, 
two women bloggers--one of them, her name, Nguyen Phuong Uyen, 
got 6 years, 6 years, sentenced for conducting propaganda 
against the state. Another woman got 8 years.
    On May 26th, police arrested a blogger and charged him with 
abusing democracy and infringing upon the interests of the 
state. Mr. Chairman, what democracy? Talk about Orwellian 
statements being made by a government. This is not a democracy, 
it is a dictatorship. Our hopes and prayers are that someday 
the people's rights will be represented and it will be a 
democracy, but it has not matriculated from a dictatorship to a 
democracy. And these kinds of actions further underscore that 
that is not in the process of happening.
    On May 28th, eight ethnic Montagnards were convicted of 
undermining national security, and most of them got sentences 
of some 7 to 11 years.
    And on May 5th--and you referenced this, Mr. Chairman, in 
your statement--these human rights picnics at which these young 
bloggers, idealists, are out there saying and reading the 
Universal Declaration of Human Rights and other human rights 
documents, were broken up. And, of course, they, too, are now 
facing retaliation.
    I would point out to my colleagues that there are many 
people--I have been to Vietnam a number of times. The Venerable 
Thich Quang Do is still under pagoda arrest. They have made 
illegal the Unified Buddhist Church of Vietnam and set up a 
shell of an organization to replace it. So all of these 
Buddhist leaders, including the Venerable Thich Quang Do, 
remain isolated, arrested, or under house arrest or, in his 
case, pagoda arrest.
    Father Ly--we thought there was a break, maybe some opening 
after the bilateral agreement. That has not happened.
    My friend, Mr. Faleomavaega, said it is time to see things 
for what they are. That is precisely what John Sifton said from 
Human Rights Watch. It is time for the U.S. Government to see 
things for what they are. There was hope a few years ago that 
attempting a military strategic dialogue with Vietnam, with 
opening trade negotiations in the context of the Trans-Pacific 
Partnership, might serve as an incentive for Vietnam to make 
changes and perhaps soften its authoritarian edge. It now 
appears, he goes on to say, that this hope was misplaced. 
Vietnamese authorities have not unclenched their fists.
    I would ask that our distinguished friends who are here 
from the administration, specifically, if they would endorse 
and hopefully back fully the Human Rights in Vietnam Act of 
2013, a bipartisan piece of legislation that establishes very 
tangible benchmarks and says, we stand with the oppressed, not 
with the oppressor. And we are talking about releasing 
religious prisoners, substantial progress on freedom of 
religion, assembly, and association. We are talking about 
peaceful dissent, access to U.S. refugee programs, ethnic 
minorities, and the issue of trafficking.
    Right now--and I say this with respect to our witnesses 
today--the administration could send an absolutely clear and 
unmistakable message to the Government of Vietnam in Hanoi: 
Impose CPC. There is no doubt that religious freedom has 
deteriorated. I held all the hearings and had the markup that 
moved Frank Wolf's bill, the International Religious Freedom 
Act, back in 1998. There is no doubt that Vietnam ought to be 
classified as a Country of Particular Concern.
    And, in like manner, I was the prime sponsor of the 
Trafficking Victims Protection Act. There is no doubt, whether 
it be on labor or sex trafficking, in my view, that Vietnam has 
earned the dubious distinction of being a Tier III country 
because of its labor trafficking, in particular, and, to a 
lesser extent, because of its sex trafficking. And that could 
be done administratively, just applying the facts as a backdrop 
to the law that is already on the books. I would hope that they 
would do that.
    And I yield back and thank the chair for yielding such time 
to me.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from California, Mr. Bera, is recognized for 
1 minute.
    Mr. Bera. Thank you, Chairman, for calling this hearing, 
and Ranking Member.
    Obviously, the relationship between the United States and 
Vietnam is changing rapidly. You know, we can celebrate the 
rapid assimilation and ascent of the Vietnamese-American 
community, you know, both in my home State of California but 
then throughout this country, and the contributions that they 
have made.
    It is good to see that we are normalizing relationships 
and, you know, increasing our economic ties between the 
countries. Obviously, that does come with responsibilities as 
Vietnam joins the global economic community, and those 
responsibilities do come with the necessity to treat its 
citizens with basic human rights. That change is going to be 
gradual, but whatever we can do to help facilitate that as we 
normalize relationships.
    In addition, you know, we have talked within this committee 
and the broader committee on the importance of the South China 
Sea and the challenges that we face there as China starts to 
exert its influence there, but the importance of middle 
countries like Vietnam, as well as, you know, the partnership 
between India and Vietnam.
    So, you know, I look forward to hearing the testimony of 
the witnesses, getting your analysis on how we move forward in 
this relationship. And, again, I think there are huge 
possibilities here.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentleman from Pennsylvania, Mr. Perry, who is the vice 
chairman of this subcommittee, is recognized for 1 minute.
    Mr. Perry. Thank you, Mr. Chairman.
    It pleases me that this hearing is being convened today to 
bring attention to the nexus of human rights and trade 
negotiations with Vietnam, as the conclusion of the Trans-
Pacific Partnership looms in the near future.
    Vietnam, once a Stalinist state, has, since the collapse of 
the Soviet bloc, undergone a series of economic reforms, 
including the suspension of central planning, 
decollectivization of agriculture, removal of restrictions on 
private trade and enterprise, and the promotion of foreign 
trade and Western investment.
    However, some legacies of the Stalinism remain deeply 
entrenched. The ruling Vietnamese Communist Party, VCP, still 
claims to adhere to Marxism, Leninism, and rejects any 
meaningful political reform. The structure of the one-party 
totalitarian state is essentially the same, despite superficial 
modifications to align laws and institutions more closely with 
international norms.
    I believe we should be creative in considering new ways to 
pressure Vietnam on human rights issues in the wake of the 
worsening crackdown on dissent in the last year.
    And I yield back.
    Mr. Chabot. The gentleman yields back his time.
    The gentleman from California, Mr. Sherman, is recognized 
for 1 minute.
    Mr. Sherman. Thank you, Mr. Chairman.
    I would like to focus on human rights. Dr. Baer, thank you 
so much for your work at DRL. I hear good things.
    I also want to thank the Vietnamese community of the San 
Fernando Valley for keeping me informed on human rights issues 
in Vietnam.
    I want to particularly focus on Le Quoc Quan, who has 
worked for the National Democratic Institute and the National 
Endowment for Democracy as a fellow and has found himself in 
prison pretty much as a result of that. And I want to commend 
to my colleagues a letter being organized by Loretta Sanchez to 
protest his incarceration.
    Likewise, there are the two students, Nguyen Phuong Uyen 
and Dinh Nguyen Kha, who are in prison right now for 
circulating a patriotic leaflet urging that Vietnam protect its 
sovereignty from its big neighbor to the north.
    And, finally, Mr. Yun, I hope that our diplomats, who 
report to you ultimately, are going to--visiting as many human 
rights detainees as possible, visiting the trials, and exposing 
this to the world, while at the same time emphasizing its 
importance to the United States.
    I yield back.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from California, Mr. Rohrabacher, who is 
chairman of the Europe, Eurasia, and Emerging Threats 
Subcommittee, is recognized 1 minute.
    Mr. Rohrabacher. Thank you very much.
    And I just have a few thoughts which have been brought to 
mind by my good friend Mr. Eni Faleomavaega's statements.
    And I recognize and appreciate very much that Mr. 
Faleomavaega is a combat veteran from Vietnam and he has paid 
the price. And while some of us, like myself--actually, I was 
in Vietnam for a while, but I was not in the military and 
certainly didn't face combat as Mr. Faleomavaega did.
    But I don't think the United States has anything to 
apologize for in terms of what we have tried to do for the 
people of Vietnam. Fifty thousand Americans died there, and we 
gave a huge amount of treasure and blood, and we failed. It was 
a failure. Now is our time to make sure that we, all these 
decades later, that we can work together with the people of 
Vietnam and succeed where we failed in the past.
    And success will be when the Marxist dictatorship, the 
corrupt gangsters that were installed after we left, no longer 
hold the people of Vietnam in their iron grip. And I just would 
say that we need to work for that day, and that would be 
something that would--hopefully what we could do for the people 
of Vietnam.
    And, Mr. Chairman, thank you for holding this hearing. I am 
looking forward to going through some more details about the 
trade agreement that we are looking for.
    But whatever we do should not in any way strengthen the 
dictators' hands around the necks of the people of Vietnam. 
But, instead, we should make sure everything we do economically 
helps lead the people of Vietnam, empowering them, so perhaps 
they at long last can enjoy the freedom that they sacrificed 
for, as well.
    Thank you very much.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentlelady from Hawaii, Ms. Gabbard, is recognized for 
1 minute.
    Ms. Gabbard. Thank you, Mr. Chairman and Ranking Member 
Faleomavaega, for holding this very important hearing.
    And thank you to Mr. Yun and Dr. Baer for your presence and 
your insights here today, as well.
    There is no question that our strategic and economic 
engagements with Vietnam have been a good example of showing 
what we can overcome when we have a difficult past and how to 
turn that negative into a positive and have a very productive 
relationship going forward.
    In my State of Hawaii, we have numerous ties to Vietnam--
strategic, economic, cultural, as well as familial ties with 
the very large Vietnamese community in my State of Hawaii. And 
I think it is important for us to focus on continuing to build 
an even stronger partnership with the entire Southeast Asia 
region, but also recognize that, as we do that, it is our 
responsibility to find creative ways to ensure that we are 
addressing with the Vietnamese Government the human rights 
challenges and obstacles that we continue to see and we 
continue to face.
    In November 2011, we were very proud in Hawaii to host the 
Asia-Pacific Economic Cooperation, which Vietnam is a member 
of, and it was a very productive conversation. And I am proud 
also to have heard Defense Secretary Hagel on Saturday invite 
the ASEAN countries, of which Vietnam is also a member, to a 
meeting next year in Hawaii, which will be another great 
opportunity to engage with our friends across the Pacific in a 
very productive way going forward.
    So I appreciate your being here and look forward to the 
conversation.
    Thank you.
    Mr. Chabot. Thank you very much. The gentlelady's time has 
expired.
    I would now like to introduce the panel this afternoon. It 
is a very distinguished panel.
    We will begin with Joseph Y. Yun. Joseph Yun is currently 
Acting Assistant Secretary in the Bureau of East Asian and 
Pacific Affairs for the Department of State. He previously held 
the position of Principal Deputy Assistant Secretary.
    Mr. Yun joined the Foreign Service in 1985 and has served 
in the Republic of Korea, Thailand, France, Indonesia, and Hong 
Kong. He is a career member of the Senior Foreign Service, 
class of Minister-Counselor. Before joining the Foreign 
Service, Mr. Yun was a senior economist for Data Resources, 
Incorporated, in Lexington, Massachusetts.
    We welcome you here once again this afternoon, Mr. Yun.
    We also have Daniel B. Baer, who was sworn in as Deputy 
Assistant Secretary for the Bureau of Democracy, Human Rights, 
and Labor on November 23, 2009. His portfolio includes the 
Office of East Asian and Pacific Affairs and the Office of 
Multilateral and Global Affairs.
    Prior to joining the Department of State, Dr. Baer was an 
assistant professor of strategy, economics, ethics, and public 
policy at Georgetown University's McDonough School of Business, 
where he taught business ethics to MBA and undergraduate 
students there. From 2004 to 2007, Dr. Baer worked at the 
Boston Consulting Group, where he was a project leader and 
provided strategic advice to leaders in the corporate, 
government, and nonprofit sectors.
    We welcome you both here this afternoon.
    I am sure you are both familiar with the 5-minute rule. A 
yellow light will come on when you have 1 minute to wrap up; 
then the red light comes on. We would appreciate it if you 
would wrap up by that point.
    Mr. Yun, you are recognized for 5 minutes.

  STATEMENT OF MR. JOSEPH Y. YUN, ACTING ASSISTANT SECRETARY, 
 BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Yun. Thank you very much, Mr. Chairman, Mr. 
Faleomavaega, and members of the subcommittee. Thank you for 
the opportunity to appear before you today to testify on the 
U.S. relationship with Vietnam.
    It is also a great pleasure to be here with my friend and 
colleague, Dan Baer from our Democracy, Human Rights, and Labor 
Bureau. Dan, of course, has been leading our Human Rights 
Dialogue with Vietnam, and he will discuss human rights issues 
with you at some length.
    I will offer the administration's perspective on our 
overall relationship with Vietnam, which has become an 
important emerging partner for the United States.
    With your permission, Mr. Chairman, I would like to submit 
a more detailed version of this testimony for the record.
    Mr. Chabot. Without objection, so ordered.
    Mr. Yun. Thank you.
    Our policy goals in Vietnam reflect the growing breadth of 
our relationship. We seek to promote the following in Vietnam: 
A market oriented economy that welcomes U.S. exports and 
investment; cooperation in advancing regional peace and 
security; and for Vietnam to increase respect for human rights, 
including freedom of religion, embrace of good governance, and 
rule of law.
    In many ways, we have made enormous advances since we 
normalized diplomatic relations in 1995. Back then, United 
States two-way trade with Vietnam was just $451 million. Today, 
we conduct close to $25 billion in two-way trade a year, and 
Vietnam has attracted more than $10 billion in U.S. direct 
investment.
    The centerpiece of our economic agenda with Vietnam is the 
Trans-Pacific Partnership, a 21st-century regional free trade 
agreement that will economically integrate Vietnam with 
countries on both sides of the Asia-Pacific region.
    In addition to joining the TPP negotiations, Vietnam has 
high ambitions to grow a high-tech, knowledge-based economy. We 
believe the TPP will become a key vehicle for encouraging 
Vietnam to address labor rights. We emphasize to Vietnam's 
leaders that building a vibrant, innovative economy requires 
allowing people the freedom to think and to create.
    Much of the innovation in Vietnam's economy comes from 
Vietnamese-Americans, who have invested hundreds of millions of 
dollars in Vietnam. Every year, more Vietnamese-Americans 
return to do business and visit family and friends.
    There certainly are difficulties there. Too often, 
Vietnamese security services view with distrust overseas 
Vietnamese who want their homeland to become more open, more 
democratic, and more prosperous. We have urged the Government 
of Vietnam to improve its own outreach to Vietnamese-Americans 
and to address the community's human rights concerns, which the 
U.S. Government shares.
    Distrust has also been part of our bilateral relations 
because of our difficult past, but both sides have moved to 
address war-legacy issues in a manner that has built confidence 
and goodwill. For over 2 decades now, Vietnam has facilitated 
operations to recover the remains of American servicemembers 
missing from the Vietnam War. We are also committed to helping 
Vietnam address the problems of unexploded ordnance and dioxin 
contamination at the former U.S. air base in Da Nang.
    Our cooperation in regional issues has deepened 
considerably. Since its highly successful chairmanship of the 
Association of Southeast Asian Nations, ASEAN, in 2010, Vietnam 
has solidified its position as a regional leader. We have 
worked together in ASEAN and other multilateral fora to 
encourage discussion of maritime security, humanitarian 
assistance, and disaster relief issues facing the region.
    The United States also supports the efforts of Vietnam and 
other ASEAN members to negotiate with China a Code of Conduct 
in the South China Sea and to resolve disputes through 
diplomatic and other peaceful means in accordance with 
international law.
    On the diplomatic side of the relationship, the United 
States and Vietnam are cooperating closely on regional and 
global security issues. We are also enhancing military-to-
military exchanges and conducting joint training in search and 
rescue and disaster relief.
    The United States welcomes Vietnam's plans to deploy its 
first troops overseas in support of U.N. peacekeeping missions 
in 2014. To help with this effort, the U.S. is providing broad-
based professional military education to the Vietnamese 
military to help them prepare for these missions.
    Our forward-looking relationship with Vietnam manifests 
itself most clearly in people-to-people relationships. There 
are over 15,000 Vietnamese students now studying in the United 
States, which makes Vietnam the eighth-largest sender of 
foreign students to our country. This is a dramatic change from 
1995, when only 800 Vietnamese students were studying here.
    While we have an ambitious agenda with Vietnam, I would 
underscore that the issue of human rights permeates our entire 
policy approach to Vietnam and that we have emphasized that 
progress in human rights is critical to make progress in all 
other areas of relationship.
    Mr. Chairman, we firmly believe open debate and free 
expression are essential to achieving a stable and prosperous 
future for Vietnam. We respect Vietnam's independence and 
sovereignty, and we believe that allowing all of Vietnamese 
people to have a voice in determining their future is critical 
to achieving their full potential.
    Thank you, Mr. Chairman. I look forward to your questions.
    Mr. Chabot. Thank you very much, Mr. Yun.
    [The prepared statement of Mr. Yun follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Chabot. Dr. Baer, you are recognized for 5 minutes.

STATEMENT OF DANIEL B. BAER, PH.D., DEPUTY ASSISTANT SECRETARY, 
BUREAU OF DEMOCRACY, HUMAN RIGHTS AND LABOR, U.S. DEPARTMENT OF 
                             STATE

    Mr. Baer. Thank you very much, Mr. Chairman and members of 
the committee, for holding this very important hearing and for 
your concern about the human rights situation in Vietnam. We 
share that concern.
    And I, too, would like to submit a longer statement for the 
record.
    Mr. Chabot. Without objection, so ordered.
    Mr. Baer. The Department of State recently submitted to 
Congress both the annual country reports on human rights 
practices and the report on international religious freedom. 
These two reports, prepared by my bureau with collaboration 
from colleagues at posts around the world, provide a detailed 
snapshot of the facts underlying our concerns relating to human 
rights in Vietnam.
    In April, I led a delegation to Vietnam that included 
representatives from the White House and the Department of 
Homeland Security for the U.S.-Vietnam Human Rights Dialogue. 
We emphasized that 2013 represents an opportunity for the 
Government of Vietnam to choose to improve its human rights 
record and laid out some of the urgent areas for work.
    We acknowledge positive steps such as the release, albeit 
with restrictions, of activist Le Cong Dinh, facilitation of a 
visit by an international human rights organization, and a 
modest uptick in church registrations in the highlands. We 
welcome discussions between the government and the Vatican and 
also what appears to be potential positive movement for the 
human rights of LGBT persons.
    We watch with great interest the flood of public comments 
about the draft constitution and are encouraged by the 
government's decision to extend the comment period. It is now 
incumbent upon the authorities to give the comments serious 
review and to incorporate citizens' concerns into the revised 
text of the Constitution.
    But these steps are not enough to reverse a years-long 
trend of deterioration, as Congressman Smith noted, nor have 
the isolated positive steps formed a consistent pattern. In 
increasing numbers, bloggers continue to be harassed and jailed 
for peaceful online speech, and activists live under a 
continual cloud, activists such as Nguyen Van Dai and Pham Hong 
Son, who authorities blocked from meeting with me in Hanoi.
    The human rights situation reflects a systemic lack of 
fairness that has implications for every aspect of our 
relationship. Let me outline quickly a few of our concerns.
    Many of Vietnam's more than 120 political prisoners are in 
jail for exercising their right to freedom of expression. Cu 
Huy Ha Vu, whose wife I met with in Hanoi, criticized publicly 
the corruption associated with bauxite mining and was sentenced 
to 7 years. Ta Phong Tan is in prison for writing online about 
police corruption. Nguyen Van Hai, or Dieu Cay, peacefully 
expressed his views online and protested his country's policies 
toward China and is now serving a 12-year sentence.
    The state has deemed these individuals a threat, a national 
security concern--a charge clearly unfounded when you sit down 
and have a conversation with individuals such as Father Ly, 
whom I was able to meet in prison.
    Do Thi Minh Hanh, Doan Huy Chuong, and Nguyen Hoang Quoc 
Hung were arrested in February 2010 for distributing pamphlets 
and calling for democratic freedoms. The U.N. Working Group on 
Arbitrary Detention has advised their release.
    Development of a modern, successful, and fair country 
requires the free flow of information, yet Vietnam seeks to 
control information, even as that control is increasingly 
slipping. We are very concerned about Vietnam's Internet 
policies of blocking, hacking, surveillance, and its detention 
of bloggers. Draft regulations on Internet content management 
seek to restrict the flow of information even further.
    Nonetheless, Vietnam's Internet penetration continues to 
grow, and the country has seen a blossoming of blogs that 
continue to attract the interest of large numbers of reform-
minded Vietnamese, including Dan Luan and Thong Tan Xa Vang 
Ang. Other reform-minded Web sites, such as Ang Ba Sam, have 
been targeted with hacking and disabling.
    A frequent refrain I hear whenever I visit Vietnam is the 
need for better implementation of laws that are on the books. 
Constitutionally, citizens have the right to free speech, 
freedom of religious belief, and other human rights. But we all 
know, for example, that many members of Christian, Buddhist, 
and other groups face harassment and are required to, but then 
not allowed to, register. The new Decree 92, which came into 
effect in January, could be implemented in a way that further 
restricts, rather than promotes, religious freedom guaranteed 
in the Constitution.
    Vietnamese law guarantees access to a lawyer and guarantees 
defense lawyers equal standing with the prosecutor. Reality, 
though, plays out differently. I have heard repeatedly from the 
lawyers of political prisoners who are not permitted to access 
case files, who are given unequal accommodations in courtrooms, 
are not allowed to use computers, and are not allowed time to 
defend their clients.
    Some laws also clearly need to change, laws that run 
counter to international human rights norms such Articles 79 
and 88, which are used to detain political activists critical 
of the state.
    In closing, I would note that, over the 18-plus years since 
normalization, ties between Vietnam and the U.S. have improved 
through trade, travel, and cultural connections. Those on both 
sides of the ocean have benefited, in particular, Vietnamese 
living in Vietnam, where the standard of living has increased 
as the population becomes better off and more educated.
    As we talk about human rights, we should all remember that 
our concerns are really echoes of the concerns being voiced and 
discussed by millions of people inside Vietnam. They get it. 
They know the status quo won't do. They see that, although 
Vietnam has become a more prosperous country, without progress 
on human rights, there are limits to what Vietnam can achieve. 
We want to reinforce them, and we want to work closely with 
members of the committee to push Vietnam to improve its 
protections for human rights.
    Again, thank you for holding this hearing, and I look 
forward to working with you and taking your questions.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Mr. Baer follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                              ----------                              

    Mr. Chabot. Now we will ask questions, and I will begin 
with myself.
    Historically, Vietnam and China have had an uneasy 
relationship, quite complicated, hot and cold. As the colossal 
neighbor to its north, Chinese influence has been very strong, 
yet China's growing aggressiveness in the South China Sea and 
threats to Vietnam's territorial claims and harassment of 
Vietnamese fishing trawlers has pushed Vietnam to reevaluate 
its strategic position.
    Despite Vietnam's efforts to reach out and develop closer 
ties with the U.S., even embracing our role as a Pacific power, 
Vietnam remains cautious about stirring up tensions with China 
or calling out China for its actions. This past weekend, 
Vietnamese police detained over 20 people protesting Chinese 
naval vessels ramming Vietnamese fishing trawlers.
    I would ask both panel members this afternoon to discuss 
this dynamic and why Vietnam is cracking down on protests but, 
at the same time, sends its Prime Minister to the Shangri-La 
Dialogue for the keynote address, during which he clearly lays 
out Hanoi's concerns about its northern neighbor's provocative 
behavior.
    How is the administration using various aspects of 
cooperation to leverage Vietnam's troubled relationship with 
China, while at the same time pressuring Vietnam to be more 
respectful of human rights?
    So I would ask both Mr. Yun and Dr. Baer to respond.
    Mr. Yun. Thank you very much, Mr. Chairman.
    I think it was in a different setting last time we 
discussed the difficult historical issues that the area has. 
And I would say this is another difficult historical issue 
between China and Vietnam going back generations, if not 
centuries or more. And they have had, of course, a history of 
war with each other. And, of course, China is in reality its 
giant neighbor, and that always brings caution and wanting to, 
you know, at once assert and play safely.
    With regards to Vietnam's strategic position, how they want 
to deal with China, I would say they are in very close contact 
with the ASEANs--that is the Association of Southeast Asian 
Nations--and to try to get ASEANs unified on issues such as the 
South China Sea. And I think that was what they were referring 
to.
    With regards to their crackdown on demonstrations, again, 
it is still, as my colleague Dan spelled out and as 
Representative Smith mentioned, very much a controlled state. 
So there is a limit to what they will do before it gets out of 
hand.
    I would note that, at the same time, when they arrested 
some demonstrators on this particular instance, they let the 
LGBT demonstration go on. So, you know.
    Mr. Chabot. Mr. Baer, I have one more question I wanted to 
get in. However, I think Mr. Yun very effectively answered that 
question, so let me give you a different one.
    At yesterday's hearing on continuing repression by the 
Vietnamese Government, the witnesses alleged that they and 
other U.S. citizens of Vietnamese origin have been victims of 
property confiscation by the Vietnamese Government after they 
became U.S. citizens. Many of them wrote to the Legal Adviser's 
Office at the Department of State to request intervention but 
were told to retain lawyers in Vietnam and resolve their claims 
according to domestic law in the local jurisdiction.
    However, in 2003, the Vietnamese National Assembly passed a 
resolution declaring that the Vietnamese Government would no 
longer entertain any claim for the return of land or 
residential housing already placed under state management, 
making any attempts at seeking local remedy futile.
    Would you comment on that and what can be done about that? 
What would you suggest?
    Mr. Baer. Thank you very much.
    I am aware of these concerns. I would like to ask your 
permission to consult with the Department's legal counsel and 
respond to you in a written response----
    Mr. Chabot. Okay.
    Mr. Baer [continuing]. To take that question back.
    Mr. Chabot. All right. That would be fine.
    Mr. Yun, would you want to comment on that?
    Mr. Yun. I think----
    Mr. Chabot. On the topic overall.
    Mr. Yun. Yeah, on the topic overall, these land 
confiscation issues, land issues, it is unfortunately becoming 
fairly common, not just in Southeast Asia but elsewhere. And I 
think, again, the rule-of-law issues are very important here.
    On this particular case, I think we will consult with our 
legal affairs bureau and get you a proper answer, sir.
    Mr. Chabot. All right. Thank you.
    In the short time I have left, I would just note that the 
same issue had come up with respect to Cambodia recently. We 
met with some of the leadership there, and this is an ongoing 
problem in Cambodia, as well.
    And my time has now expired, and I will recognize the 
gentleman from Samoa, Mr. Faleomavaega, for 5 minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I just want to ask a quick question of Secretary Yun.
    We have come a long way in terms of trying to establish a 
better relationship with our Vietnamese-American community and 
with that of the officials of the Government of Vietnam.
    Can you elaborate a little further on that? You say that 
many of our Vietnamese-American community members are investing 
in Vietnam? How many have visited their home country since? 
Have there been any estimates of the size of our Vietnamese-
American community? Is it about 2.5 million? Any estimates in 
terms of how this relates?
    Mr. Yun. I will look for an estimate of how many have gone 
back. But, certainly, as you know, I have visited Vietnam many 
times over the past few years. It is fairly routine for me to 
go there. When I meet the business community, among them will 
be Vietnamese-Americans.
    Mr. Faleomavaega. As I have stated earlier and in previous 
hearings that we have had, I just want to say, Mr. Chairman, 
that I recognize with utmost respect our colleague from New 
Jersey, with whom we have worked so well and who is a great 
advocate and defender of human rights. To Chairman Smith, I do 
attribute all this to his hard work and always trying to make 
sure that human rights are meted out properly everywhere that 
we go, and especially in representing our country.
    And I wanted to ask Secretary Baer, is there some kind of a 
gold standard that the State Department has established to say 
that this is how we apply human rights on a more equitable and 
fair basis? Like, for example, are we applying the same 
standards as we do in Saudi Arabia, countries in the Middle 
East that are not democratic? Are we putting Vietnam in a 
different sphere in terms of the criticisms?
    I am not here to defend Vietnam. I am just asking, what 
standard are we applying? And if we are applying a standard, 
are we doing it evenly and fairly as we do in Vietnam or any 
other nondemocratic country?
    Mr. Baer. Thank you, Mr. Faleomavaega.
    The standard that we seek to apply are internationally 
recognized human rights norms, many of which are encoded into 
international law. The best articulation of the sum of them is 
probably the Universal Declaration of Human Rights. And since--
--
    Mr. Faleomavaega. And of the 192 nations that make up the 
United Nations, how many are nondemocratic countries?
    Mr. Baer. I don't know, but I would say that the best, or 
one of the most available analyses of that is--I am happy to 
provide it--Freedom House does an analysis every year of 
countries that are partly free, mostly free, or not free. And 
that is----
    Mr. Faleomavaega. My question is perception. I remember 
years ago when we visited with President Zemin of China and we 
were talking about human rights violations there. President 
Zemin turned around and said, ``You know, I have a very 
different perception and different issue of what human rights 
are. My responsibility as President of the People's Republic of 
China is that if I am not providing food, clothing, and raiment 
for that person there in China, I am violating his human 
rights.'' This is an entirely different perception of how we 
look at things. And this is what I am very concerned about.
    I remember years ago the Prime Minister of Samoa was 
outraged with the annual report that the State Department puts 
out on human rights violations, some country here and country 
there. The fact that made him so outraged was that nobody--
nobody from the State Department ever bothered to come to the 
country and review the questions that they had about prisoners 
and all of this.
    How do we go about collecting the so-called facts--are they 
really facts? Are they opinions? How do you say that this is 
the standard that everybody should be following?
    I am just saying, if we are applying the same standard in 
Vietnam as we do in Saudi Arabia or in other countries that are 
not democratic, then you have a case here.
    Mr. Baer. I believe that if you go back and read the 
Country Report on Human Rights Practices for the countries that 
you have mentioned--Saudi Arabia, China, other countries--you 
will find that, indeed, the standard we use is the standard 
laid out in the Universal Declaration of Human Rights and other 
documents, the International Covenant on Civil and Political 
Rights, and that the sections of the report go through and 
factually account for the situation in each country. There----
    Mr. Faleomavaega. I have 10 more seconds. Just one real 
quick, and maybe you will have to submit this in writing.
    How do you determine human rights, in terms of the 
rendition operations that we carried out during the Iraq war? 
Would you consider that as a violation of human rights, of just 
whooshing people off for the operations that we did secretly, 
renditions, taking people out of their countries without any 
due process?
    Mr. Baer. I will submit an answer in writing, but----
    Mr. Faleomavaega. Could you, please?
    Mr. Baer [continuing]. Briefly, I would say that universal 
human rights apply to everyone, including ourselves.
    Mr. Faleomavaega. Okay.
    Mr. Chairman, thank you.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The chair will now recognize the chairman of the full 
Foreign Affairs Committee, the gentleman from California, Mr. 
Royce, for 5 minutes, either to make a statement or ask 
questions or whatever he would prefer to do.
    Mr. Royce. Thank you, Mr. Chairman, very much for doing 
this.
    My concern is that, in 2013, you had 40 dissidents arrested 
in the first 6 weeks, a show trial, and long sentences. And 
this was more cases than all of last year in Vietnam.
    And sometimes when we are talking about these cases, I 
think our mistake is to not look at the details of the 
magnitude of human rights violations that occur and over such a 
trivial issue. Maybe not that trivial, because the two students 
that I wanted to bring up, Nguyen Phuong Uyen and Dinh Nguyen 
Kha, were actually talking about the territorial integrity of 
their own country, of Vietnam, handing out leaflets. And, for 
that, this 21-year-old girl--and this is a photo of her, and I 
think there was a photo earlier--now is sentenced to 6 years in 
prison.
    And here is my concern and why I am bringing this to the 
attention of both of you. After she was arrested and before her 
sentencing, we had that dialogue, and nowhere in your remarks 
do I see mention of what happened to her.
    And, according to her mother and according to her friend, 
when she was arrested, she was beaten into unconsciousness and 
kicked. Her mother reports the bruises on her neck, on her arms 
that her mother could see. She was carried away, charged, I 
guess the terminology is ``working against the interest of the 
state'' or words to that effect, and receives a 6-year 
sentence. And her friend, in his 20s, another college student, 
he is sentenced to 8 years.
    It is not just the show trials and the sentencing; it is 
the barbarous way in which they were beaten.
    And my concern is, when we have these dialogues, when we 
had that dialogue in April before her sentencing, how much, 
Doctor, did you speak up about this case? And what did you say 
the United States was prepared to do to prevent these disparate 
sentencings and these types of beatings while in custody?
    Mr. Baer. Thank you, Congressman. I am glad you have 
focused on the case of Nguyen Phuong Uyen. When she was first 
arrested, I actually went to New York and met with the 
Ambassador of Vietnam to the United Nations there and raised my 
concerns about that case and her case----
    Mr. Royce. What did he say? I would love to hear his----
    Mr. Baer. He noted my concerns and said that he would take 
them back to Hanoi. And I raised them again in the course of 
the Human Rights Dialogue.
    The fact that she wasn't mentioned in my opening testimony 
is only testament to the number of names that I could have 
listed in my opening testimony.
    Mr. Royce. I understand, Dr. Baer, but, at some point, our 
actions have to match our words. We are at that point with 
Vietnam, seriously. You can't have 40 cases like this in 6 
weeks and not have the United States take decisive action.
    And the reason we are holding this hearing today is because 
we are demanding some semblance of responsibility with respect 
to human rights inside Vietnam. We have a relationship with 
this country, and there is much that Vietnam is asking of the 
United States. I don't think it is too much to ask for her 
release and for the release of this other student who was taken 
into custody.
    Again, the crime here is passing out a leaflet that 
discusses the issue of the territorial questions, the 
territorial waters off the coast of Vietnam. How in the world 
can that constitute or justify the type of beating she went 
through and the type of prison sentence that she and her friend 
have been given?
    And if we are not going to use the leverage that we have in 
order to check these impulses to use violence--it is not 
responsible for the United States, with the leverage we have, 
not to make our actions match our words about this. And we are 
going to have to do something.
    And my suggestion is, contact again the Ambassador and tell 
him about the concerns, not just from us but from the NGO 
community worldwide. This is the type of thing that starts a 
firestorm among young people over their future on this planet, 
when governments are as capricious as this.
    And there are other issues that you and I have talked about 
that I could bring up. But, at this point in time, you know, 
please, let's at least set an example here that the dialogue we 
are having can bear some results, that we mean it when we say 
we want to work together for human rights and for the future. 
And this would be such an important place for the Government in 
Vietnam to start, with respect to these two students.
    And if I could just have a quick response, I would be----
    Mr. Baer. You have my commitment that I will continue to 
raise this case and that I will press them to release her and 
her friend on the charges that they have been sentenced on.
    Mr. Royce. Dr. Baer, thank you.
    And I appreciate----
    Mr. Chabot. Thank you, Mr. Chairman. And the gentleman's 
time has expired.
    The gentleman from California, Mr. Bera, is recognized for 
5 minutes.
    Mr. Bera. Thank you, Mr. Chairman.
    You know, I echo a lot of the concerns of my colleagues, 
but I want to shift a little bit here. I am a very firm 
believer that, as economies develop, with that comes freedom 
and stability. And anything we can do to help Vietnam's economy 
develop and grow. But that freedom and stability only comes if 
there is a concurrent respect for the rule of law and a respect 
for basic rights of citizens.
    And, again, you will only get that progress--I am curious, 
you know, the chairman talked a little bit about land rights 
and land seizures. And, again, if, you know, there isn't that 
rule of law, you are not going to see the gains necessary. And 
part of our success here in the United States is that we have 
that respect for the rule of law.
    I am curious, Mr. Yun or Dr. Baer, on your perspectives of 
the possibility of seeing both of those go.
    Mr. Yun. I mean, clearly, as many members have raised 
again, Vietnam has gone through serious economic growth over 
the last 20, 25 years. And I think they have a big opportunity 
coming up in the TPP negotiations. It is a very high-standard 
agreement with labor standards, investment standards, and also 
how you operate factories, safety standards.
    So I think that will be a key opportunity for the 
Vietnamese to seize and to make something out of it so that 
they can really attain twin goals: Economic reform as well as 
economic growth. This is a project we are deeply engaged on, 
and we are expending some of our own assistance money for them 
to get there.
    Mr. Bera. But it can't just be the economic growth and the 
economic reform. That has to come hand-in-hand with the rule of 
law, with the reforms on the citizens.
    Mr. Baer. I agree. I mean, the rule-of-law issues are 
deeply connected to the crackdown on freedom of expression. 
They are deeply connected to the attempts that the government 
makes to prevent citizens from coming together, and NGOs in 
advocating. And, of course, we know that no system of the rule 
of law works fairly or effectively, including for resolving 
business matters, if it is not open to scrutiny and public 
debate and discussion. And so that is certainly part of what we 
are conveying.
    Importantly, I think, it is also part of what Vietnamese 
citizens are talking about. And so you mention land disputes. 
There was a famous case recently in Hai Phong with a shrimp 
farmer who violently defended an illegal seizure of his land by 
the police. This case captured the national imagination. There 
were debates about it on Twitter, there were discussions 
online, et cetera. And the way that that resonated with the 
Vietnamese people showed that they, too, recognized that there 
needs to be political reform that delivers rule of law, 
equality under the law, and fair judgments by courts in order 
for the progress that they want to continue.
    Mr. Bera. Does the Vietnamese Government understand that?
    Mr. Baer. I think different actors within the Vietnamese 
Government are at different stages of recognizing that reality. 
But I think there are certainly many in the Vietnamese 
Government right now, for example, who are deeply concerned 
about corruption and who are publicly commenting on the need to 
tackle corruption. And so that would evidence that they 
recognize that the status quo is not sufficient.
    Mr. Bera. And as we engage in these negotiations--again, I 
agree that there is enormous opportunity for Vietnam within the 
context of the TPP negotiations and the broader Asian 
renaissance. But what leverage do we have to, again, help 
advance the government's understanding?
    Mr. Yun. I think, actually, we do have considerable 
leverage. And the fact of our engaging and the way they look at 
regional security issues, South China Sea issues, and the 
linkages they are forming with Japan, India, that is so 
helpful, and we have been encouraging that.
    I would also add one more point, which I think Chairman 
Royce has mentioned and I think Representative Smith has 
mentioned, there is no doubt, we acknowledge that the recent 
situation, if anything, has been backtracking. There is no 
question. And some of that may be due to the economic growth 
issues, the demand issues that are coming up.
    So I think that the overall trend, I believe, is right; 
recent developments have been very discouraging and 
disappointing. But I do hold promise that our engagement both 
with civil societies that are in Vietnam as well as economic 
engagement will only help.
    Mr. Bera. And I am running out of time, but, you know, 
perhaps you could respond in writing. What role would you like 
to see the Vietnamese-American community, which, again, has 
gained some affluence and prominence, play in advancing 
Vietnam's emergence moving forward? And I think they have a 
role.
    Mr. Yun. Sir, I am a Korean-American, and I believe Korean-
Americans have played a role in democratization of Korea. We 
can go back to the Kim Dae-jung days and before.
    So I think their activity is helpful, their economic 
engagement is very helpful; as well as a number of students now 
we are seeing from Vietnam as they go back. There are tens of 
thousands of them. I think all that people-to-people engagement 
can only help.
    Mr. Bera. Thank you.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentleman from Pennsylvania, Mr. Perry, is next in 
line, recognized for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman.
    This question I think will be directed to Mr. Yun.
    Vietnam plans to develop 10 nuclear power stations, at a 
cost of approximately $50 billion to $70 billion, to meet the 
soaring power demand from its expanding manufacturing sector 
and growing population. And both Russia and Japan are actively 
working to deploy their nuclear technology in the country.
    A recent letter to the President from former defense and 
national security leaders explains that ``U.S. nuclear 
cooperation advances U.S. interests in nuclear safety, 
security, and nonproliferation; enables U.S. nuclear energy 
exports; and creates American jobs.''
    Can you tell us what role civil nuclear trade plays within 
the priority of U.S.-Vietnam strategic issues?
    Mr. Yun. I think Vietnam, because of its energy needs, will 
have to rely quite a bit for its additional needs on nuclear 
technology. They do want to conclude a civil nuclear agreement 
with us, also known as a 123 agreement.
    For us, we need to decide on a policy, what level of 
proliferation safeguards, especially on enrichment technology, 
there will be. That is something I believe the administration 
is in the process of doing. After that is done, we will be 
prepared to negotiate an agreement with them.
    Once that agreement is concluded, I do believe it is in our 
interest, with safeguards in place, to encourage our companies 
to sell them reactor technology. I think that would be a win-
win for both sides.
    Mr. Perry. With that, can you tell us, if you know, what 
the State Department is doing to expedite conclusion of the 
U.S.-Vietnam Section 123 agreement? I mean, have there been any 
specific measures taken? Is there a timeline? Is there a 
projected goal for a date of when that will be concluded? What 
can we expect in that regard?
    Mr. Yun. I think before we engage in any more civil nuclear 
123 agreements, the administration has to decide what 
enrichment standard there will be in these agreements. So that 
has to come before we embark on a negotiation with Vietnam, as 
with any other countries.
    Mr. Perry. Do you know what considerations they would have 
regarding enrichment standards? I mean, what----
    Mr. Yun. The Vietnamese have told us that they are not 
interested in nuclear weapons, they are not interested in 
proliferation. And I think things they have said so far, there 
is no reason to doubt that. And, for example, they adhere to 
IAEA safeguards. They have signed the additional protocol.
    So I think it is really, I am afraid to say, the burden is 
on the administration to get our global policy right first 
before we embark on particular country negotiations, such as 
Vietnam.
    Mr. Perry. Well, if you could take the message back, while 
the administration is trying to figure this out, the clock is 
ticking, and other relationships are being built and 
strengthened at the peril of our United States relationship 
with Vietnam and particularly with our manufacturing sector, 
which could be a great benefit to both Vietnam and America. So 
while the administration is fiddling, Rome is burning, and we 
would urge them to move it up.
    Thank you.
    Mr. Yun. Your point is very well-taken, sir.
    Mr. Perry. I yield back.
    Mr. Chabot. The gentleman yields back his time.
    The gentleman from the Commonwealth of Virginia, Mr. 
Connolly, is recognized for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chabot. And I want to join you 
in expressing some dismay that the Office of the United States 
Special Trade Rep is not at the panel.
    By the way, Mr. Yun, I know that you said you took Mr. 
Perry's comments to heart. Hopefully you weren't taking to 
heart his metaphor, his analogy of Rome burning while the 
administration fiddles. I don't think the administration is 
fiddling, and I can't imagine you, representing the 
administration, believe that either.
    For the record, Mr. Yun?
    Mr. Yun. These are very serious deliberations we are 
conducting----
    Mr. Connolly. And is the administration fiddling?
    Mr. Yun. I would say we are not fiddling.
    Mr. Connolly. Okay. Thank you. Just wanted to clear that 
right up.
    Mr. Chabot. The record will reflect that the administration 
claims it is not fiddling.
    Mr. Connolly. It is not fiddling. I am nothing if not 
helpful to this administration, I think, Mr. Chairman.
    I want to ask both of you, I mean, you are hearing it from 
all of us, on both sides of this aisle, that the centrality of 
rule of law and respect for the spectrum of civil rights, human 
rights, we believe, as Americans, are universal. They are not 
culturally bound. And we understand that, you know, Vietnam is 
still evolving as a society, as a government, as a 
jurisprudence. But the stories of persecution based on 
religion, political dissent, media expression, the right to 
organize are legion. And because many of us have large 
Vietnamese-American communities in our home districts, we hear 
about it a lot.
    Is the administration seized with the centrality of this 
set of issues in our bilateral relationship? Or is this 
something that is sort of on the bucket list we have to 
address, among many other items?
    Mr. Yun. Thank you, sir. We are very much seized. I have 
had, even in the past 6 months, two dialogues. And, of course, 
we always raise this issue as the central issue. I think my 
boss at that time, Secretary Clinton, raised it when she was in 
Hanoi last year.
    So this is an issue that comes up again and again with us 
emphasizing, as you call it, centrality, that not more can be 
done in terms of strengthening the relationship until they 
meaningfully address the issue of human rights.
    Mr. Connolly. Dr. Baer?
    Mr. Baer. Thank you. I agree with both the theory behind 
your question and with my colleague's answer. You know, one of 
the things that I tried to emphasize when engaging with 
officials in Hanoi the month before last was the fact that we 
raise these issues not because only of our politics--it is true 
that our Members of Congress hear from constituents and hear 
their concerns--but also because of the policy, because, first 
of all, we are committed to universal human rights standards 
and, second of all, because we really believe that without 
progress on the rule of law there will not be the possibility 
for the strong partnership that we desire to have with Vietnam 
and with other countries. There is a ceiling on their progress 
until they can make progress on human rights.
    And so this is not just a matter of politics; it is a 
matter of policy. And because it affects their progress on a 
range of issues, including economic ones, it is central to our 
engagement.
    They have seen trade with the United States go up 5,000 
percent in the last 20 years. They have deep security concerns. 
No country in the region stands to benefit more from progress 
in partnership with the United States. And in order for that to 
happen, they have to make progress on human rights and the rule 
of law.
    Mr. Connolly. It seems to me, too, from my own observation, 
having been there some time ago, is the Vietnamese Government 
has to appreciate that capital has plenty of other places to go 
in the region. It doesn't have to go to Vietnam. It does have 
to go to China, but it doesn't have to go to Vietnam. And so 
you have to establish some respect for the rule of law and that 
spectrum of human rights/civil rights, or you are going to be 
in a noncompetitive position with respect to Western capital.
    Final point: I also hope that it is understood that this 
centrality is going to have an impact on the TPP. And if you 
want to see the TPP hit up against very rough waters and 
shoals, make sure this issue is not addressed. And I hope that 
message is taken back both to the Government of Vietnam and our 
own Government, because I am somebody who is a free-trader, but 
I am here to tell you, TPP will not pass, in my view, this 
Congress absent significant metric improvement on human rights.
    I yield back.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentleman from New Jersey, Mr. Smith, is recognized for 
5 minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Secretary Yun, you testified that human rights ``is not a 
single stovepipe issue; rather, it is an issue that permeates 
our entire policy approach and engagement with Vietnam.''
    Since bilateral trade agreement, certainly there has been a 
serious deterioration on all human rights issues in Vietnam, 
and I would ask you if you could perhaps speak to that.
    But, last month, a high-level Obama administration 
delegation traveled to Vietnam to sell Westinghouse nuclear 
reactors, to promote nuclear power. And the delegation, as you 
know, included Joyce Connery, the White House director for 
nuclear energy policy; Under Secretary Francisco Sanchez; an 
Assistant Secretary from the Energy Department, Dr. Pete Lyons; 
it was a very, very high-level delegation. From what I gather, 
they were in Vietnam for 3 days.
    Could you tell the committee precisely and in detail what 
human rights issues were raised--because, obviously, it 
permeates the entire policy--during that trip? What was the 
response? Were there any results? Did they ask for political 
and religious prisoners to be released? Was religious freedom 
raised? Was human trafficking raised? And if you could be 
precise.
    Mr. Yun. I will have to seek clarification and explanation 
from the trip notes from Under Secretary Sanchez.
    Mr. Smith. Would you get that back to us as quickly as 
possible?
    Mr. Yun. Yes.
    Mr. Smith. And I would ask, you know, no superficial 
response, if you would. And I say that with all due respect. 
Exactly, did they raise and tender names of people who have 
been incarcerated that ought to be free?
    Secretary Yun, one witness yesterday at our hearing, Dr. 
Nguyen Dinh Thang, president of Boat People SOS, testified that 
up to \1/2\ million U.S. citizens of Vietnamese origin have had 
their real estate and other property stolen by the Vietnamese 
Government. Property confiscation, as we know, even for the 
Vietnamese themselves, is a potent weapon being used against 
Christian and religious communities. The Catholics, of course, 
had their property stolen recently, and several people beaten 
and a few killed.
    Not only does the Foreign Assistance Act prohibit foreign 
aid to any country that expropriates properties of U.S. 
citizens--again, we are talking about \1/2\ million people--but 
the State Department Legal Adviser's Office instructs American 
citizens whose property has been stolen to, and I quote, 
``contact and hire an attorney in Vietnam to help pursue any 
rights and remedies that you may have with regard to your 
property under domestic law and in the local jurisdiction.''
    Yet, as Dr. Baer testified, while Vietnamese laws guarantee 
access to a lawyer and guarantee defense lawyers equal standing 
with the prosecution, you also note--and I am glad you note 
this--reality, though, plays out differently. It sure does.
    I met with one of the lawyers that you tried to meet with, 
Nguyen Van Dai in Hanoi. He was working on expropriation cases 
and other human rights cases.
    How do you find these lawyers? These human rights defenders 
are incarcerated themselves and have no standing in law, 
because in 2003 there was a decree saying they are not going to 
give the properties back. So this has to be a government-to-
government struggle.
    If I could, the question: Why is the Legal Adviser 
dispensing such foolish, ill-informed advice? And, secondly, 
since human rights permeate our entire policy approach and 
engagement with Vietnam, as you have so testified, is it part 
of the Trans-Pacific Partnership negotiations?
    And I am not talking about a tangential conversation about 
human rights. I am talking about deeds, conditionality. We 
didn't get conditionality in the bilateral agreement, and we 
have seen a serious deterioration ever since. A lot of us 
advocated strongly for that conditionality; it didn't happen. 
Now we have an opportunity with the TPP to do so.
    If you could answer those questions.
    Mr. Yun. On the expropriation issues, again, I would say 
what Dan said, that we really do need a comprehensive response. 
We will take it in writing, and then have our legal department 
do a comprehensive response to that.
    On TPP and human rights, I think, overall, if you look at 
TPP, it does have a labor chapter, and I think that will be 
substantially helpful.
    And then on other issues--for example, how does the 
government procurement deal with businesses? There is a 
government procurement chapter, as well as investment chapter. 
And that is particularly relevant for Vietnam, where the public 
sector, especially state-owned enterprises, is so big and you 
need some rules clarification.
    So, overall, I do believe this will be key for reform, and, 
in the end, that will also help aspects of human rights----
    Mr. Smith. So political prisoners will not be a part of the 
TPP?
    Mr. Yun. There is no direct chapter called human rights, 
sir.
    Mr. Smith. Will we do that? Would you consider that? 
Because I agree with my friend from Virginia, there will be 
huge opposition to this in the Congress, as there ought to be.
    I yield back.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from California, Mr. Sherman, is recognized 
for 5 minutes.
    Mr. Sherman. Thank you.
    We have focused much on human rights, and I want to commend 
three bills to my colleagues. Most of my colleagues are 
familiar with these bills, but--Zoe Lofgren's FREE Vietnam Act, 
which links trade to human rights. Chris Smith, of course, has 
his Vietnam Human Rights Act of 2013. Please put me on as a 
cosponsor. And, finally, the chairman of this committee, with 
his resolution to once again list Vietnam as a Country of 
Particular Concern with respect to religious freedom. I am 
going to be a cosponsor of all three of those now, and I would 
commend them to my colleagues.
    Now let's focus on the human rights of well over 10 million 
unemployed and underemployed Americans. Most economists would, 
if they had to pick a number, say that every $1 billion of 
trade deficit equates to a loss of 10,000 American jobs. And 
while the human rights advocates in Vietnam are suffering 
without justice, there is nothing just about such unemployment 
in our country.
    Mr. Yun, what is our trade surplus or deficit with Vietnam?
    Mr. Yun. It is approximately a $10-billion deficit.
    Mr. Sherman. Okay. My staff has it at $15 billion. In any 
case, it is substantial.
    Now, in our relations with many other countries, you can 
say, okay, there is a free market, we want to buy their stuff, 
they don't want to buy our stuff, so it is a fair game, and we 
have a trade deficit.
    But Vietnam is one of the most managed economies in the 
world. So the decision as to how much to import, especially the 
major goods--it is not like we are selling, you know, 
individual pairs of shoes here. What America specializes in is 
huge infrastructure projects, maybe automobiles, maybe 
automobile factories. And so this trade deficit is a decision 
made in Hanoi.
    What have we done to tell the Government in Hanoi that 
their access to the U.S. market is dependent upon them buying 
more of our exports?
    Mr. Yun. Sir, I am not sure that you can directly relate 
the trade deficit to unemployment. By that account, if we did 
no trade, there would be no unemployment in the United States.
    Mr. Sherman. Obviously, we would have a lower standard of 
living if we did no trade. But the fact is that if we were able 
to export as much as we import, we would have an unemployment 
rate of way less than 5 percent in this country. And our 
failure to get other countries to buy as much from us as they 
sell to us, that failure looms quite large in a country with so 
much unemployment. In fact, as I say, if we were successful in 
selling as much as we buy, we would have virtually no 
unemployment except the transitional unemployment from one job 
to another.
    Again, what have--we won't debate the economics because I 
asked a specific factual question. What have we done so that 
Hanoi believes that if they want to be able to sell I am told 
$1 billion worth of goods in the United States, they are going 
to have to buy more than $4 billion worth of goods from us, 
since it is a governmental decision?
    Mr. Yun. I think trade promotion, specifically export 
promotion of U.S. exports, is an enormous agenda with us. We 
believe that----
    Mr. Sherman. The specific question is, what have we done, 
other than send them some glossy brochures, about how wonderful 
Caterpillar earth-moving equipment is?
    Mr. Yun. We raise the case of opening up markets. For 
example--and I would say TPP is an enormous tool.
    Mr. Sherman. TPP is to promote--and the trade deficit much 
to the loss of the unemployed in my district and districts 
around this country. What you are saying is, Hanoi fully 
understands that they can make a governmental decision to buy 
less than $5 billion worth of our goods, and still send $20 
billion worth of their goods to the United States. And if our 
State Department was in tune with our constituents the way 
Members of Congress have to be, we would have different trade 
and foreign policy. I yield back.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from California, Mr. Rohrabacher, is recognized for 5 minutes.
    Mr. Rohrabacher. Let's do some basics here. When you say 
that the rule of law is lacking, that means that you do not 
have an independent judiciary in Vietnam; is that correct?
    Mr. Baer. That is correct, sir.
    Mr. Rohrabacher. And Mr. Yun, that is correct?
    Mr. Yun. Yes, sir.
    Mr. Rohrabacher. So thus, anyone who would have a conflict 
over a contract would have absolutely no protection from an 
independent decision maker through the court system, right? So 
if we end up having more of our people investing in Vietnam, 
they have no protection, correct?
    Mr. Baer. I think individual cases may be resolved fairly 
on some basis but they would have no tenable expectation.
    Mr. Rohrabacher. Right. Based on the goodwill of the 
gangsters who are running the country. Thank you.
    By the way, let us just note that they don't have an 
independent judiciary. They don't have a free press. They don't 
have opposition political parties. So why would we think that 
there will ever be progress in a country like that? Or why 
would you think that people who are willing to beat other 
people up or murder them, they are going to worry about keeping 
their contracts with someone over money?
    The bottom line is, when you have a free press, your dirty 
deeds are exposed. When you have opposition parties, the 
opposition party will attack you for it. And the public will go 
to the opposition party. When you have an independent 
judiciary, all of these things are a prerequisite to a free 
society, and the gangsters that run Vietnam have made sure we 
don't have any of them in place. Isn't that correct?
    Okay. So what are we doing? We now are going to take that 
regime and we are going to sell them billions of dollars worth 
of nuclear technology. Give me a break. These are gangsters. 
These are people who won't allow an opposition party, won't 
allow rule of law, won't allow freedom of the press because 
they have an iron grip on the throats of their own people. And 
they are, of course, putting a lot of money in their own 
pockets. Let me just state so everyone will know--and I hope 
the administration understands--providing nuclear capability to 
a group of gangsters like this, saying, well, of course, we can 
rely on their goodwill, not because they don't want to have a 
nuclear weapon now--is the most absurd thing that I have ever 
heard. Think about this. We are going to give people who 
maintain that type of iron grip and a whole other society, we 
are going to give them a nuclear facility that could indeed, 
like is happening in Iran, produce the material needed for a 
bomb, but we are relying on their goodwill?
    There is new nuclear technology. Let me just note. I am on 
the Science Committee. And we are capable now of building 
nuclear power plants that cannot be used--the after stuff, it 
cannot be used to produce a weapon. We actually can build 
nuclear facilities that do not disturb the proliferation issue, 
all right? Unless we are talking about those new types of 
reactors, you can expect that that deal with Vietnam will never 
go through--well, at least while this party is in power of the 
House. We will see what the American voters say next time 
around. Let me also note that--do we call it Saigon or do we 
call it Ho Chi Minh City? What do we call it?
    Mr. Yun. We call it Ho Chi Minh City in our diplomatic 
correspondence.
    Mr. Rohrabacher. Right. So we have got a group of people 
that we can't even call that city by what the people down there 
really believe it is. People in South Vietnam still, in their 
hearts, know it is Saigon and not Ho Chi Minh City. But we will 
make sure that we don't anger those people who are oppressing 
them.
    Finally, the Trans-Pacific Partnership, so will that 
correct the problems that we just talked about? No rule of law 
or no freedom of press and no opposition parties? Are we going 
to have this new partnership with them that we are going to 
include them but they are still--does that mean they are going 
to have a rule of law after that, and they are going to have 
opposition parties and freedom of the press?
    Mr. Yun. Sir, I don't think anyone is pretending that TPP 
is a cure-all. But I do believe that it is progress, one step 
forward.
    Mr. Rohrabacher. Let me note that for decades, we were told 
that all we have to have are these economic agreements with 
China, and China was going to liberalize politically. I call it 
the ``hug A Nazi, make a liberal'' theory. The fact is, it has 
been decades and there has been no liberalization politically 
in China whatsoever and they are still repressing their people.
    So thus, we are now going to that formula and seeing that 
it will work in Vietnam as well. Well, you know the definition 
of insanity, doing the same thing and expecting different 
outcomes. This is insane. Thank you very much, Mr. Chairman.
    Mr. Chabot. Thank you. The gentleman's time has expired. 
The gentleman from Georgia, Mr. Collins, is recognized for 5 
minutes.
    Mr. Collins. Thank you, Mr. Chairman. I appreciate that. I 
would like to associate myself with those remarks. It is sort 
of amazing what we are going through here. But I want to go 
back to a different line of questioning here for just a moment, 
and it does refer to the TPP a little bit. Currently, there are 
odds with the U.S. and Vietnam over TPP, specifically dealing 
with yarn forward issue, rule of origin. Vietnam wants to skirt 
the Yarn Forward rule because it receives textiles from China 
and could produce textile products at a cheaper rate.
    A letter was sent to the Ambassador that highlights Vietnam 
as expecting its U.S. Market share to increase from 7 to 30 
percent if allowed to export state-subsidized textile goods. 
Secretary Yun, where do you stand on this issue?
    Mr. Yun. Sir, I am not familiar with this Yarn Forward 
rule, except I know that it is under negotiation. If you like, 
we will get back a written response.
    Mr. Collins. Well, I would also like to know what the 
assurances the American textile industry can have in this 
situation, in which it would put them in a difficult situation 
in an already troubled market here at home.
    At this point I would like to yield to my good friend from 
New Jersey, Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Collins. And just two 
quick questions. And you didn't get back on whether or not to 
support the Vietnam Human Rights Act. I would appreciate it if 
you would.
    But on two very specific questions, the State Department's 
country report acknowledges that the government maintains its 
prohibition on independent human rights organizations, yet the 
State Department recently announced a $450,000 in funding to 
local Vietnamese NGOs to promote democracy in Vietnam. Genuine 
advocates for democracy and rule of law are not allowed 
independently in Vietnam. I remember I met with a group of NGOs 
from Vietnam. I asked for their card. I said, who pays your 
salary? They said the government. I said, you are not a NGO by 
definition. Secondly, International Diaspora Engagement 
Alliance is designed by and is launched by Hillary Clinton to 
engage Diaspora communities in the U.S. to contribute changes 
to their countries of origin. The State Department has 
allocated $800,000 to this initiative, but the contributions 
are for trade, investment, volunteerism, philanthropic 
initiatives, and innovation, and no human rights. Could you 
tell us why? Why was human rights excluded?
    Mr. Baer. Joe has generously said that I should take all of 
the questions. Like he said, I am a very good colleague.
    Thank you, Congressman. I apologize for missing the 
question that you had put in your opening statement. As you 
know, you and I have had many discussions on human rights in a 
range of places, and I share your commitment. I don't want to 
comment now on legislation that is pending before Congress, but 
I can certainly say that I personally am very sympathetic to 
the intentions and the concerns that underlie that as well as 
other initiatives that Members of Congress have taken.
    Mr. Smith. Thank you. And on those two other issues, the 
$450,000?
    Mr. Baer. So on the $450,000, my bureau makes a concerted 
effort around the world to engage without regard for whether or 
not a particular host government will like what a particular 
NGO is working on or be particularly enthusiastic about it. To 
engage with local civil society groups to build their capacity, 
to argue for change from within. On my last trip to Vietnam, I 
will say that when I was there for the Human Rights Dialogue, I 
was there for 4 days. And I honestly felt more encouraged than 
I have on any previous visit. But there is a real hunger for 
change that is being driven and discussed at the grassroots. I 
met a number of people who are engaging seriously in this 
comment process on the Constitution who are seeing it as an 
opportunity to point out areas of inconsistency with universal 
human rights standards, and we will continue to look to do 
whatever we can to support local true NGOs, not GONGOs, as they 
work to build their capacity and make a case for change from 
within.
    Mr. Smith. You are giving us assurance the GONGOs will not 
be----
    Mr. Baer. We make every, every effort. We have no 
intention, desire, reason to support a GONGO. GONGOs get plenty 
of support from the government, and they don't need ours. What 
we want to support are individuals----
    Mr. Smith. I still have the business cards.
    Mr. Baer. I have run into that too.
    Part of the problem is a recent decree also made it illegal 
to have independent organizations that comment on policy 
issues, which caused one of the only real independent think 
tanks in the country to have to shut down. But they are 
figuring out how to keep going with conversations among a group 
of intellectuals who are making arguments about what is best in 
terms of reform for the country.
    Mr. Smith. And on the IDEA, the International Diaspora 
Engagement Alliance?
    Mr. Baer. I don't work on that. So unless Joe knows 
something----
    Mr. Smith. Could you get back to us on that and try to add 
that as a category? I mean, it seems to be a no-brainer to me.
    Mr. Baer. I will get back to you.
    Mr. Smith. I am almost out of time. Again, Secretary Yun, 
if you could get back to us, in detail, about who they spoke to 
when they were in Vietnam. I am talking about the high-level 
delegation that was in Vietnam about a month ago. It is 
extremely important because my concern--and I am finished--is 
that so often, there will be a tangential mention so an X in 
the box that, oh, we mentioned human rights. That is read by 
our interlocutors as false, as insincere, superficial. If you 
are going to have engagement, it has to be real and robust. 
Thank you.
    Mr. Yun. We will do the same.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from North Carolina, Mr. Holding, is recognized for 5 minutes.
    Mr. Holding. Thank you, Mr. Chairman. You all have both 
detailed the continued problems that you hear while you are in 
Vietnam about the failure to implement the laws, the failures 
to protect citizens' constitutional rights, free speech and 
religion and the denial of guaranteed right to counsel by 
prisoners. And you have mentioned a number of things. But I 
would kind of like to get a top 10 hit list of failures to 
implement the rule of law in Vietnam. Would you all care to 
reel off a few of your favorite failures to implement the rule 
of law in Vietnam, the examples that are particularly poignant 
to you? Maybe you can go back and forth, do one, two, three, 
four.
    Mr. Baer. I think Mr. Smith once asked me to name a top 10 
list, and at that point, I think it was of Internet repressors. 
And at that point, I fell back on the, administration officials 
usually get in trouble when they spontaneously create lists in 
front of Members of Congress.
    So rather than a top 10 list, I will tell you that 
obviously we remain deeply concerned about a number of issues 
with respect to religious freedom, both the rights of groups to 
register as well as individual cases like Thich Quang Do, whose 
case came up earlier today, as well as land concerns of various 
religious groups in terms of getting space to build places of 
worship, et cetera. So there is a range of rule of law issues 
that affect religious freedom in Vietnam. Freedom of 
expression, which increasingly includes the Internet issues 
that we are seeing. And here we are seeing happening in Vietnam 
what is happening around the world, which is that governments 
are not only using technical means to limit the rights of 
citizens to express themselves online, they are also using 
legislative or regulatory means.
    So we are very concerned about a draft decree on Internet 
content management that would further restrict the online space 
in Vietnam. So freedom of expression. Freedom of association is 
a place where rule of law can't ever improve without--we know 
it from our own society. We can see it in democratic societies 
around the world that rule of law is preserved when citizens 
can come together and advocate for and point out failings and 
hold governments to account. And it is what we have seen work, 
and we have never seen the rule of law work in a sustained way 
without that.
    So there are issues in all of those areas that are driving 
concerns for us. And obviously, individual cases of prisoners 
of conscience raise these issues in different ways. And they 
are good as examples to illustrate the broad range of our 
concerns.
    Mr. Holding. Does the State Department have any facility or 
program that monitors these failures to implement rule of law?
    Mr. Baer. I mean, the most regular facility that we have is 
our annual reports on human rights conditions which cover all 
countries around the world. Our report on Vietnam is--it is 
maybe 100 pages, maybe longer, but in that range. It goes 
through on an annual basis a range of concerns that we have 
specific, including the specific cases. And it is widely 
regarded--the U.S. Government's human rights reports are widely 
regarded as the most objective fact-based reporting on human 
rights worldwide.
    Mr. Holding. Right. I don't want to get you in cross ways 
by coming up with a top 10 list of problems or failures of rule 
of law. But how about a top 10 list of things that the State 
Department has done to improve the rule of law in Vietnam? 
Maybe that will be an easier one.
    Mr. Baer. I have got 1 minute and 19 seconds to come up 
with 10 items. I would say, let me see how many I get to. But 
one is certainly in our diplomatic engagements, as Joe and I 
have talked about, not only through mechanisms like the Human 
Rights Dialogue but any high-level visit, any high-level 
conversation we are always raising the centrality of human 
rights issues to the U.S.-Vietnam bilateral relationship and 
the limits on that relationship without progress on those 
issues.
    Also I would say that we are engaging with partners around 
the world. This week--today, in fact, in the Human Rights 
Council in Geneva, we read a statement about issues of urgent 
concern in the world. We called out Vietnam as one of the 
places where we were urgently concerned, and we work with 
partners to shine a spotlight on our concerns, so to apply 
pressure that way. We work to support civil society and those 
within Vietnam who are making the case for change. We think 
that that is an important piece of the long-term progress and 
solution.
    We work to engage the business community to make sure that 
they, too, understand what they have to gain by seeing progress 
in the rule of law, which it doesn't take long to explain it. 
They get it. Internet companies, tech companies see a real 
threat to the same pieces of legislation or regulations that 
are going to limit freedom of expression, are going to limit 
the potential of that sector of the Vietnamese economy as well. 
As I have said before, Vietnam cannot become what Vietnam wants 
to become if the next Bill Gates is sitting in a prison because 
of something he wrote online. So we are engaging across a range 
of ways to make the case for and apply the pressure to and 
incentives for progress on the rule of law in Vietnam.
    Mr. Holding. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much.
    We will go to a second round. I have a couple of questions. 
I probably won't take up the full 5 minutes. If other members 
that are still here would like to ask a few questions, we will 
do that, but I don't think these will take too long.
    Vietnam reportedly is seeking to obtain a seat on the 
United Nations Human Rights Council. I would note that over the 
years that August body has included such bastions of human 
rights as Sudan, Cuba, Iran, and other notables. That being 
said, what is the administration's position on Vietnam's bid 
for a seat on the Human Rights Council? Do you plan on opposing 
its bid? If so, what would you do to prevent them from 
obtaining a seat if it really means anything anymore to be on 
that committee?
    Mr. Baer. Thank you, Congressman. As you probably know, the 
way that elections for the Human Rights Council happen--and 
they will happen in November--is that there are elections for 
each regional group. There are five slots for the Asia group 
and there are currently six candidates, including Vietnam, also 
China and Saudi Arabia as well as Nepal and a couple of others. 
I was asked by the Government of Vietnam to support their 
candidacy. We don't publicly disclose----
    Mr. Chabot. What did you tell them?
    Mr. Baer. I told them we do not publicly disclose who we 
are going to support. But I can tell you that the way that we 
choose who we are going to support is we choose governments 
whose record on human rights reflects what we think is a high 
standard of human rights in the world.
    Mr. Chabot. What did they respond when you told them that 
their competitors are countries like China and Saudi Arabia?
    Mr. Baer. Unfortunately, I think they are well aware that 
those are who their competitors are. So we articulated our 
desire to see a Human Rights Council whose membership reflect 
high standards of human rights in the world. Part of what we do 
to try to ensure that is that we do not trade votes for the 
Human Rights Council. And unfortunately, many of our European 
friends do trade votes, and that means that they end up voting 
for states who should not be supported based on their own human 
rights records.
    Mr. Chabot. Perhaps it is just repeating the obvious, but 
with the human rights abuses that we have heard discussed 
today, it seems like they would fit right in on the United 
Nations Human Rights Council. My second question is somewhat 
related. Many international human rights organizations as well 
as Vietnamese American advocates have criticized the State 
Department's country reports and the report on your 
international religious freedom for a lack of specificity, 
depth, and, at times, accuracy.
    It is understandable that the State Department may not have 
ready access to victims of persecution, such as dissidents 
under house arrest or in prison. Members of the different 
persecuted churches who have made it to America and have 
reported that the Vietnamese Government sets up alternative 
religious organizations so as to eliminate the genuine ones. 
There is major concern that the State Department has only been 
allowed free access to these fake religious groups and not to 
the genuine ones.
    Now there are some victims who made it to freedom, and some 
of them have recently testified. One being the Venerable Danh 
Tol of the Khmer-Krom Buddhist church. Of course, the 
government has repeatedly tortured and done other horrific 
things to him, but the victims of religious persecution who 
managed to escape the country and exiled leaders of the 
persecuted churches would be a valuable source of information 
for the Department of State's report and CPC designation.
    Would the State Department consider convening meetings 
with, for example, the Caldy Church and the Hoa Hao Buddhist 
Church and the Unified Buddhist Church and various Protestant 
denominations, as well as the Catholic Church in order to get 
their input?
    Mr. Baer. Absolutely. I convene on a regular basis with 
representatives of the Vietnamese American community, as well 
as people who happen to be in the United States here at the 
State Department. I always make an effort when I am traveling 
to meet with a variety of people within Vietnam.
    Obviously you are right. Being an American diplomat means 
that there are some people who I don't get access to. But in 
pulling together those reports, it should be clear that we 
don't just rely on the people who we are able to talk to. We do 
seek out information from others. We try to assess that 
information and make sure that what we are reporting is as 
fact-based, objective, and credible as possible so that there 
is a record of the abuses for not only our diplomats but those 
around the world who use our reports to work from as they 
advocate for change. We did report this year on the defrocking 
of a Khmer-Krom Buddhist.
    We do report on specific incidents when we get those 
reports. And if constituents are coming to you with either 
inaccuracies or things that they think should be included in 
the reports, I would welcome them submitting their information 
or reaching out to my office at the State Department.
    Mr. Chabot. All right. Thank you very much. I said I would 
try not to use my full 5 minutes but did. I apologize. I will 
now yield to the gentleman from American Samoa, Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I had about 100 
additional questions I wanted to ask our panel this afternoon. 
I will forgo the process. But I do want to ask a question that 
is not related to Vietnam. I would like to ask Secretary Baer 
if you could submit the Human Rights report on the West Papuans 
in Indonesia, the status of the treatment of the West Papuans 
people by the Government of Indonesia. I do want to thank both 
gentlemen for their fine testimonies and look forward, 
especially to my dear friend and colleague, Chairman Smith.
    And like I said, I could not ask for a better champion on 
human rights when it comes to members of this committee and the 
tremendous work and dedication that this gentleman has given on 
the issue of human rights throughout the world. And I guess we 
are entitled to a second round, Mr. Chairman?
    Mr. Chabot. Yes, sir. You are using it right now.
    Mr. Faleomavaega. Again, gentlemen, thank you for coming. I 
am going to forgo my questions for now. I yield back.
    Mr. Chabot. The gentleman yields back. The gentleman from 
New Jersey is recognized.
    Mr. Smith. Thank you very much, Mr. Chairman. And thank you 
for your courtesy and for extending time for me and members who 
are not part of your subcommittee to be here.
    I do have a question. If you could get back to us maybe 
right now on CPC. And to my friend, Mr. Faleomavaega, Saudi 
Arabia is a CPC country because of their terrible crackdown on 
religious freedom and their persecution of people of faith. So 
if you could speak to that, I would appreciate it.
    On trafficking, as I think you know, Vietnamese workers are 
sent by government labor recruiting companies to work in 
countries all over the world. At a recent hearing on my 
subcommittee, I heard from one witness, Dr. Thang again, and 
others who say that there are approximately 3,000 Vietnamese 
owned sweatshops in and around Moscow alone, each employing 
from a few to over 100 workers, and many of these workers are 
victims of forced labor.
    There are also numerous brothels run by Vietnamese in and 
around Moscow. Young Vietnamese women are lured to Russia with 
employment offers and forced prostitution is what they are 
served and given. Sadly, they are coerced into it. About 30 
percent of the Vietnamese laborers in Russia are there under 
Vietnam's labor export program. Most disturbing are the reports 
including the testimony of one of my witnesses at an April 
hearing about human trafficking, Mrs. Nguyen Thang, that 
trafficking victims seeking help from the Vietnamese Embassy in 
Moscow are refused or actually returned to their traffickers to 
finish their ``contracts.''
    Vietnam has still not paid the multi-million dollar 
judgment against them in the American Samoa case where there 
are some 250 Vietnamese citizens who worked in the Daewoosa 
factory. And that is now over 10 years old. The most recent 
Trafficking in Persons Report had multiple examples of 
fraudulent labor recruitment practices, and yet they are still 
not on Tier III. So my question is, because we know that your 
departments feed into it, Ambassador Luis CdeBaca certainly has 
a key role in all that. But we know there is unbelievable 
pressure put on by others in the State Department to keep it 
not on Tier III, because then there is a decision that needs to 
be made whether or not sanctions will be meted out to a country 
that has been so classified.
    So if you could, they have gotten--they, meaning the 
Vietnamese Government--worse when it comes to human 
trafficking. The woman who testified and sat where you sit now 
talked about her family member, her sister and others that she 
knew who had been trafficked. I mean, the woman was in tears, 
as you would expect she would be, over this terrible government 
complicity in these heinous crimes and modern day slavery. So 
if you could, Tier III and also speak to CPC.
    Mr. Baer. Thank you, Congressman. With respect to CPC, as 
you know, Vietnam was designated as a CPC in 2004 by Secretary 
Powell. And then Ambassador-at-Large for International 
Religious Freedom, John Hanford, spent a great deal of time 
working with the Vietnamese to outline the steps that they 
would need to take to be removed from that list. And Secretary 
Rice removed them from that list in 2006.
    I would say a couple of things: One, there is a constant 
review of the conditions of religious freedom and additional 
designations can be made at any time. We are constantly looking 
at it. We have seen a couple of positive steps, like the uptick 
in registrations that has happened in the first part of this 
year. There are also deeply concerning things, like the new 
decree that I mentioned in my testimony.
    Mr. Smith. Would the gentleman yield? Even with some of the 
new registrations, there are 650 in the northern part of 
Vietnam, churches, house churches that would love to be 
registered, and they are not. And they are still discriminated 
against.
    Mr. Baer. I made the case to my interlocutor in April. I 
said, look, 20 in the first quarter of this year is better than 
10 in all of last year, but it is not going to get through the 
backlog that you have. You have to continue to pick up the pace 
on these, and there needs to be a much faster pace of 
registrations of these churches. They know that they are aware 
of CPC. They don't want to be designated as CPC. We have made 
it clear that we are watching closely, that we are reviewing at 
all times and that we are watching things like the 
registrations and like the implementing regulations that come 
out around the decree that took effect in January of this year 
that should expand, not contract, religious freedom in Vietnam.
    We also talked about the evangelical church of Vietnam. The 
northern and southern branches would like to merge and they 
have had bureaucratic obstruction in their attempts to do so. 
It was made clear that that is a step that the government 
should facilitate in order to demonstrate good faith and a 
willingness to make progress on religious freedom concerns.
    Mr. Smith. What about on trafficking?
    Mr. Baer. On trafficking, I am not part of the bureaucratic 
process that you referred to in terms of making the 
designations. Certainly, I raised trafficking issues and they 
were part of the Human Rights Dialogue. In terms of your 
specific questions and the examples you gave about the 
conditions in Russia, I would like to go back to my colleagues 
in the trafficking office and get you a full accounting.
    Mr. Smith. It is not just Russia. That was the example. 
That is what we were told and we elaborated and found out what 
was going on. Secretary Yun?
    Mr. Yun. I think on trafficking, we do have a process. And 
I have been involved in that process. In the Vietnam case, you 
are right. They need to make improvements. Having said that, 
they have also made some correct steps, including passing a 
trafficking law 1\1/2\ years ago. They never had a trafficking 
law before. So I think as you know, there is not one standard 
for trafficking. It is how much they have done in that 
particular year. And that is a very important point. And I 
think, all things considered, they are, as you know, Tier II 
Watch List. I do think that is an appropriate tier ranking for 
them.
    Mr. Smith. With your indulgence, Mr. Chairman, very 
briefly.
    Mr. Chabot. The gentleman is recognized.
    Mr. Smith. The problem with the mere passage of a law 
without effective implementation is exactly what Dr. Baer 
mentioned earlier about the guarantee of a lawyer, a defense 
attorney for those who have been accused. And it doesn't happen 
in real life. And the problem with their law is its 
implementation. And what we have found--and I certainly hope--
this is why a Tier III rating I think is warranted--that 
government itself--we set minimum standards in the TVPA of 2000 
which we have updated and expanded based on lessons learned.
    They are gaming the system. This is one of the worst 
trafficking countries in the world, and yet they will pass a 
law or a resolution, and it becomes not meaningless, but almost 
meaningless, but it becomes a great talking point to raise in a 
human rights dialogue or in some other fora.
    So I would ask you to look really hardnosed at the record, 
because the record is horrible. Look at the testimony, if you 
would, of the woman who testified at our committee, because 
that is a microcosm of a very--and, you know, it was almost 
like the tip of an iceberg of what is truly going on by this 
government.
    Mr. Chabot. The gentleman's time has expired.
    I would like to thank the members who have attended this 
afternoon. I would like to thank our panel of experts this 
afternoon. I would also like to thank the folks who attended 
this afternoon.
    All members will have 5 days to supplement their statements 
or to submit questions.
    If there is no further business to come before the 
subcommittee, we are adjourned. Thank you.
    [Whereupon, at 3:59 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
